                         U.S. SMALL BUSINESS ADMINISTRATION
                             OFFICE OF INSPECTOR GENERAL
                                 WASHINGTON, D.C. 20416



                                                                     AUDIT REPORT
                                                              Issue Date: December 27, 2000
                                                              Number: 1-02



To:             Robert J. Moffitt
                Associate Administrator, Office of Surety Guarantees




From:           Robert G. Seabrooks
                Assistant Inspector General for Auditing

Subject:        Audit of American Contractors Indemnity Company

         Attached is the audit report on American Contractors Indemnity Company issued by Cotton &
Company, LLP. The report discusses the following issues: (1) untimely notification of the principal’s
default for three bonds, (2) incomplete underwriting documentation for two bonds, and (3) needed
written policies and procedures for underwriting and servicing SBA guaranteed bonds.
        You may release this report to the duly authorized representative of American Contractors. The
findings included in this report are based on the auditors’ conclusions. The findings and
recommendations are subject to review, management decision, and corrective action by your office in
accordance with existing Agency procedures for audit follow-up and resolution. Please provide us your
proposed management decision for each recommendation on the attached forms 1824, Recommended
Action Sheet, within 80 days.
        This report may contain proprietary information subject to the provisions of 18 USC 1905.
Therefore, you should not release this report to the public or another agency without permission of the
Office of Inspector General. Should you or your staff have any questions, please contact Robert
Hultberg, Business Development Programs Group at (202) 205-7577.


Attachments
                             INDEPENDENT ACCOUNTANT’S

                      REPORT ON THE PERFORMANCE AUDIT OF

                 AMERICAN CONTRACTORS INDEMNITY COMPANY




Performed by:

Cotton & Company LLP
Certified Public Accountants
333 North Fairfax Street, Suite 401
Alexandria, Virginia 22314
Contractors’ supporting documentation in the claim files and accounting records. We obtained a list of all
SBA-guaranteed final bonds from October 1, 1996, through September 30, 1999, and identified contractors
with total bonds exceeding $1.25 million for contracts with the same obligee and bond issue dates within
several months. We then reviewed project descriptions to determine if the bonds were for a single project
divided into more than one contract.


       We conducted fieldwork during August and September 2000 at American Contractors’ offices in
Los Angeles, California. The audit was conducted in accordance with Government Auditing Standards,
1994 Revision, except as described below.

FOLLOW-UP ON PRIOR AUDITS

        The scope of our audit did not include following up on findings and recommendations from
previous audit reports.

AUDIT RESULTS AND RECOMMENDATIONS

         We noted that American Contractors correctly calculated and remitted fees to SBA in a timely
manner. We also noted, however, that American Contractors did not always comply with SBA
regulations for underwriting bonds and processing claim payments. Specifically, American Contractors did
not maintain complete underwriting documentation for two bonds or notify SBA of default for three bonds
in a timely manner, as required by SBA regulations.

        We concluded that management and financial controls were adequate to protect assets and
prevent errors and fraud. We also concluded, however, that American Contractors did not comply in all
material respects with SBA regulations.

       We conducted an exit conference with American Contractors personnel on September 1, 2000.
American Contractors personnel generally agreed with the factual aspects of the findings.

        Our findings and recommendations are discussed in detail below.

Timely Notification of Default

         American Contractors did not notify SBA in a timely manner of the default of the principals for
three of the four bonds reviewed with claims activity:

  Contractor Name                         SBG No.              Bond Default             Date SBA
                                                                  Date                   Notified
  [FOIA Ex. 4]                       [FOIA Ex. 4]             January 27, 1998         June 15, 1998
  [FOIA Ex. 4]                       [FOIA Ex. 4]             January 27, 1998         July 14, 1998
  [FOIA Ex. 4]                       [FOIA Ex. 4]             February 26, 1998      January 28, 1999


                                                     2
3
        Title 13, CFR 115.35, Claims for Reimbursement of Losses, defines events requiring notification
as follows:

                 A Prior Approval Surety must notify OSG of the occurrence of any of
                 the following:….(ii) The Obligee has declared the Principal to be in
                 default….(iv) The Surety has received any adverse information
                 concerning the Principal’s financial condition or possible inability to
                 complete the project or to pay laborers or suppliers….Notification must
                 be made in writing at the earlier of the time the Surety applies for a
                 guarantee on behalf of an affected Principal, or within 30 days of the date
                 the Surety acquired knowledge of, or should have acquired knowledge, of
                 any of the listed events.

        Recommendation: We recommend that the OSG Associate Administrator advise American
Contractors to revise its policies and procedures to ensure that SBA is notified of all defaults as required.

       American Contractors Response: In its response to the audit report (appendix) American
Contractors stated that:

                 “Although ACIC agrees that it did not comply with the formal notification
                 of the principal’s default with regard to the three bonds identified, it
                 should be noted in the final report that the untimely notification did not
                 result in any additional liability to the SBA because ACIC did notify
                 [FOIA Ex. 6] of the area office for Seattle District Office of the SBA
                 program immediately upon receipt of initial claim notification on those
                 three bonds.

                 ACIC believes that notification, while not in technical compliance with the
                 SBA regulations, nonetheless accomplished the goal of the regulations to
                 prevent additional loss to the SBA by preventing the SBA from
                 considering the issuance of additional bonds for the principals in default.
                 Your auditors noted the same during the exit interview conducted at the
                 closing of the on-site performance audit.”

         Cotton & Company Response: Cotton & Company did note that American Contractors had
notified the SBA Seattle District Office of the defaults.

Records Retention

        American Contractors did not maintain a copy of SBA underwriting form No. 1261 for two bonds,
as required. Further, American Contractors does not have written policies and procedures for
underwriting SBA bonds and ensuring compliance with record-retention requirements. American
Contractors is required to provide critical underwriting documents that may be necessary to settle existing
claims or to defend or enhance any litigation actions against either indemnitors, obligees, or other
claimants.




                                                      4
        Title 13, CFR 115.21, Audits and Investigations, requires a surety to maintain all documentation for
the term of each bond, plus any additional time required to settle any claims for reimbursement from SBA
and to attempt salvage or other recovery, plus an additional 3 years.




                                                     5
6
                                                                                 Attachment


                                            SAMPLE BONDS




                                   American                                 Bond       Bond
Sample      Surety Bond           Contractors                              Approval   Default
  No.     Guarantee Number         Bond No.              Contractor Name    Date       Date

  1      [FOIA Ex. 4                                                                     ]

  2      [FOIA Ex. 4                                                                     ]

  3      [FOIA Ex. 4                                                                     ]

  4      [FOIA Ex. 4                                                                     ]

  5      [FOIA Ex. 4                                                                     ]

  6      [FOIA Ex. 4                                                                     ]

  N/A=Sample bonds selected for underwriting review only.




                                                     7
               APPENDIX


AMERICAN CONTRACTORS INDEMNITY COMPANY
     RESPONSE TO THE DRAFT REPORT
                                                  REPORT DISTRIBUTION

Recipient                                                                                                     No. of Copies

Associate Deputy Administrator for Capital Access ......................................................1

General Counsel...........................................................................................................2

Office of the Chief Financial Officer
Attention: Jeff Brown...................................................................................................1
